                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                   New Jersey Department of State



                    JANUARY 1, 2006 THROUGH JULY 31, 2010




Report No.
E-HP-NJ-11-10
June 2011
                    U.S. ELECTION ASSISTANCE COMMISSION

                             OFFICE OF INSPECTOR GENERAL

                            1201 New York Ave. NW - Suite 300

                                  Washington, DC 20005




                                                                              June 27, 2011


Memorandum


To:        Thomas Wilkey
           Executive Director

From:	     Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help
           America Vote Act by the New Jersey Department of State (Assignment
           Number E-HP-NJ-11-10)

       We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received
under the Help America Vote Act (HAVA) by the New Jersey Department of State
(DOS). The contract required that the audit be done in accordance with U.S. generally
accepted government auditing standards. Clifton Gunderson is responsible for the
attached auditor’s report and the conclusions expressed therein.

        In its audit of the DOS, Clifton Gunderson concluded that the DOS generally
accounted for and expended HAVA funds in accordance with the HAVA requirements
and complied with the financial management requirements established by the U.S.
Election Assistance Commission. However, the audit disclosed that the DOS failed to
maintain adequate property records over HAVA funded equipment, did not utilize formal
solicitation procedures in accordance with federal regulations to purchase voting
equipment, and did not deposit the appropriated state matching funds and interest earned
on the match to the election account.

       In its January 4, 2011, response to the findings and recommendations (Appendix
A-1), and its May 2, 2011, response to the draft report (Appendix A-2), the DOS agreed
with the report’s audit results, and described the proposed actions to be taken, or that had
been taken, to resolve the issues.

         On May 2, 2011, the EAC response (Appendix A-3) indicated general agreement
with the report findings and recommendations, and stated that they would work with the
state to ensure corrective action.

       We would appreciate being kept informed of the actions taken on our
recommendations as we will track the status of their implementation. Please respond in
writing to the finding and recommendation included in this report by August 29, 2011.
Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. §
App.3) requires semiannual reporting to Congress on all audit reports issued, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report to
Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
                     
                     
    PERFORMANCE AUDIT REPORT
	

ADMINISTRATION OF PAYMENTS RECEIVED
	
             UNDER THE
	
       HELP AMERICA VOTE ACT
	
               BY THE
	
        STATE OF NEW JERSEY
	

  January 1, 2006 Through July 31, 2010
	


       UNITED STATES ELECTION
	
       ASSISTANCE COMMISSION
	
                     
                     
                     

                     
                     
                     




                     a1 
                                                  TABLE OF CONTENTS




                                                                                                                              PAGE

EXECUTIVE SUMMARY ............................................................................................................ 1

BACKGROUND.......................................................................................................................... 2

AUDIT OBJECTIVES ................................................................................................................. 3

SCOPE AND METHODOLOGY ................................................................................................. 4

AUDIT RESULTS ....................................................................................................................... 4

APPENDICES

Appendix A-1: Department of State Response to Audit Results ........................................... 8

Appendix A-2: Department of State Response to Draft Report ............................................10

Appendix A-3: U. S. Election Assistance Commission Response to Audit Results ...........11

Appendix B: Audit Methodology .............................................................................................12

Appendix C: Monetary Impact as of July 31, 2010 .................................................................13
                        U.S. Election Assistance Commission
	
        Performance Audit of the Administration of Payments Received Under the
	
                  Help America Vote Act by the State of New Jersey
	

EXECUTIVE SUMMARY


Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General (OIG) to conduct a performance audit of the New
Jersey Department of State (DOS) for the period January 1, 2006 through July 31, 2010 to
determine whether the DOS used payments authorized by Sections 101, 102, and 251 of the
Help America Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable
requirements; accurately and properly accounted for program income and property purchased
with HAVA payments and met HAVA requirements for Section 251 funds for an election fund
and for a matching contribution. In addition, we were engaged to conduct a performance audit
of the election fund receipts from June 16, 2003 to December 31, 2005.

EAC OIG conducted a performance audit of DOS' expenditures, but not the receipts of
the HAVA program from inception through December 31, 2005, and issued a report dated
September 18, 2006. We have reviewed DOS' corrective actions with respect to the findings
and recommendations included in the EAC OIG report. We found that all recommendations
have been implemented except for the maintenance of property records in accordance with the
Common Rule, which is a repeat finding in this audit report.

Our audit did not include a determination that the DOS and its sub grantees met the
requirements for maintenance of a base level of state outlays, commonly referred to as
Maintenance of Expenditures (MOE). On June 28, 2010, the Commission issued a revised
definitive policy on the requirements for the MOE. The policy included a provision that the states
will have 12 months from the date of the revised policy to voluntarily submit a revised MOE plan
to the EAC. Accordingly, our scope of audit did not include a determination of whether the DOS
and its subgrantees met the requirements for MOE.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87, Cost Principles for State, Local, and
       Indian Tribal Governments.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

                                                1
Except for the failure to maintain adequate equipment/property maintenance records (property
records), the failure to use formal solicitation procedures to purchase voting equipment and the
failure to deposit the appropriated match and the interest earned on the match to the election
account, as discussed below, our audit concluded that the DOS generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above for the period
from January 1, 2006 through July 31, 2010. The exceptions needing the DOS’s management
attention are as follows:

   •	 Property records for statewide voter registration system (SVRS) equipment purchased
      by the DOS and the voting equipment purchased by the counties we visited were not
      maintained in accordance with federal regulations.
   •	 Formal solicitation procedures to purchase voting equipment in accordance with federal
      regulations were not utilized by the five counties we visited.
   •	 The DOS did not deposit the appropriated match and the interest earned on the match to
      the election account.

We have included in this report as Appendix A-1 the DOS management’s formal response to the
findings and recommendations dated January 4, 2011, and as Appendix A-2 the formal response
to the draft report dated May 2, 2011, which detailed further actions taken to resolve the interest
question . Although we have included management’s written responses to our notices of findings
and recommendations, such responses have not been subjected to the audit procedures and,
accordingly, we do not provide any form of assurance on the appropriateness of the responses
or the effectiveness of the corrective actions described therein. DOS officials generally agreed
with our recommendations, and provided corrective action.

The draft report, including the DOS responses, was provided to the Executive Director of the
EAC for review and comment. The EAC responded on May 2, 2011, (Appendix A-3) and
generally agreed with the report’s findings and recommendations. The EAC stated that they
would work with the DOS to gain additional information to enhance their understanding of the
state’s procurement process to ensure corrective action.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

   •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
       uniform and nondiscriminatory election technology and administration requirements,
       improving the administration of elections for federal office, educating voters, training
       election officials and poll workers, and developing a state plan for requirements
       payments.

   •	 Title I, Section 102 payments are available only for the replacement of punch card and
       lever action voting systems.

   •	 Title II, Section 251 requirements payments are for complying with Title III requirements
       for voting system equipment; and for addressing provisional voting, voting information,
       statewide voter registration lists, and voters who register by mail.


                                                2
	
Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b) (5)].

    •	 “Maintain the expenditures of the state for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the state for
        the fiscal year ending prior to November 2000.” [Section 254(a) (7)].

    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254(b)(1)].
AUDIT OBJECTIVES
The objectives of our audit were to determine whether the New Jersey Department of State:
    1.		 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
         HAVA and applicable requirements;
    2.		 Accurately and properly accounted for property purchased with HAVA payments and for
         program income;
    3.		 Met HAVA requirements for Section 251 funds for an election fund and for a matching
         contribution except for the requirements for maintenance of a base level of state outlays,
         commonly referred to as Maintenance of Expenditures (MOE). On June 28, 2010, the
         Commission issued a revised definitive policy on the requirements for the MOE. The
         policy included a provision that the states will have 12 months from the date of the
         revised policy to voluntarily submit a revised MOE plan to the EAC. Accordingly, our
         scope of audit did not include a determination of whether the DOS and its subgrantees
         met the requirements for MOE.
In addition, to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:
    1.		 Comply with the Uniform Administrative Requirements for Grants and Cooperative
         Agreements with State and Local Governments (also known as the “Common Rule”) as
         published in the Code of Federal Regulations at 41 CFR 105-71.
    2.		 Expend payments in accordance with cost principles for establishing the allowance or
         disallowance of certain items of cost for federal participation issued by the OMB.
                                                                                                           1
    3. Submit detailed annual financial reports on the use of Title I and Title II payments.

1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
Through December 31, 2008, for Sections 101 and 102, reports were due on February 28 for the activities of the
previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
20XX for the fiscal year ended that date and will be due by December 31, 20XX.


                                                         3
	
SCOPE AND METHODOLOGY
We audited the HAVA funds received from June 16, 2003 through July 31, 2010 and disbursed
from January 1, 2006 through July 31, 2010.
Funds received and disbursed by the HAVA program from June 16, 2003 (inception), through
July 31, 2010 (86-month period) are shown in the following table:
                              FUNDS RECEIVED                                                                                         
 TYPE OF             EAC     PROGRAM    STATE    INTEREST    TOTAL    FUNDS                                               DATA
 
PAYMENT            PAYMENT  INCOME      MATCH     EARNED    AVAILABLE  DISBURSED                                          AS OF
 
                                                                                                                              
Section 101       $  8,141,208       $         0    $             0      $    699,488     
                                                                                           $8,840,696      $8,161,917     
                                                                                                                         7/31/2010 
Section 102          8,695,609                 0                  0                 0       8,695,609       8,695,609    7/31/2010 
Section 251       68,067,586                   0    3,582,474              5,589,716       77,239,776      59,727,116    7/31/2010 
                                                                                                                                     
     Total        $84,904,403        $         0    $3,582,474            $6,289,204    $94,776,081       $76,584,642    7/31/2010 

Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the maintenance of adequate property records, the failure to use formal solicitation
procedures to purchase voting equipment and the failure to deposit the appropriated match and
the interest earned on the match to the election account, our audit concluded that the DOS
generally accounted for and expended HAVA funds in accordance with the requirements
mentioned above. The DOS has taken action on or is working to resolve the exceptions
described below as set forth in Appendix A:

I.    Property Records

The property listings of the DOS’s SVRS equipment, and the voting equipment records of each
of the five counties we visited, did not conform to the requirements of 41 CFR 105-71.132 (d)(1)
(the Common Rule). The property records did not include required elements such as a
description of the property, the source of property, who holds the title, acquisition date, cost,
percentage of federal participation in the cost of the property, use and condition of the property,
and any ultimate disposition data.




                                                                4
	
The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132(d)(1), referred to as the Common Rule, states
that:
      property records must be maintained that include a description of the property, a serial
      number or other identification number, the source of property, who holds the title, the
      acquisition date, cost of the property, percentage of federal participation in the cost of
      the property, the location, use and condition of the property, and any ultimate disposition
      data including the date of disposal and sale price of the property. The Common Rule, 41
      CFR § 105-71.132(d)(3), also requires that a control system must be developed to
      ensure adequate safeguards to prevent loss, damages or theft of the property.

The State Code of New Jersey Circular Letter Number 91-32-OMB (Circular) requires additional
information to be provided on property records such as the organization unit charged with
custody of the equipment.

DOS election officials informed us that they were not aware of the detailed recordkeeping
requirements of the Common Rule and the Circular.

Recommendation:

1.		 We recommend that the DOS ensure that the HAVA property records of the DOS and the
     counties include the minimum information required by the Common Rule and the Circular.

DOS’s Response:

The DOS officials concurred with the finding and recommendation and stated that they will
modify the property records with the additional data fields for assets purchased with HAVA
funds to meet the minimum requirements of the Common Rule and the Circular.

II.   Sole Source Procurement

Each of the five counties we visited did not use formal solicitation procedures to purchase voting
equipment during calendar years 2004 and 2005. The five counties used sole source
procurement to negotiate contracts totaling $22,693,982. Sole source procurement is not in
accordance with the requirements of 41 CFR 105-71.136(a) of the Common Rule.

The DOS and the Superintendent of Elections at each of the counties told us that they believed
they were exempt from procurement regulations which require competitive bidding procedures
under New Jersey Statute 40A:11-5(1)(l).

The New Jersey Statute in effect at the time these purchases were made at Chapter 40A:11-5
Contracts Required to Be Advertised, Disqualification of Bidder, Exceptions, Section (1)(l) states
that:

        Exceptions. Any contract the amount of which exceeds the bid threshold, may be
        negotiated and awarded by the governing body without public advertising for bids and
        bidding therefore and shall be awarded by resolution of the governing body if:
               (1) The subject matter thereof consists of:

               (l) Those goods and services necessary or required to prepare and conduct an
                   election.


                                                5
	
The counties may not have obtained the best pricing for the voting machine equipment.
The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments (Common Rule) located at 41 CFR 105-71.136(a) requires:
       “(a) States. When procuring property and services under a grant, a State will allow the same
       policies and procedures it uses for procurements from its non-Federal funds. The State will
       ensure that every purchase order or other contract includes any clauses required by Federal
       statutes and executive orders and their implementing regulations. Other grantees and
       subgrantees will follow paragraphs (b) through (i) in this section.”
Paragraphs (b) through (i) of section 136 contain procurement standards and requirements for
full and open competition, for affirmative steps to assure that minority firms, women’s business
enterprises, and labor surplus area firms are used when possible, and for cost and pricing
analysis.
Recommendations:
We recommend that:
2.		 The EAC work with the DOS to resolve the questioned costs.
3.		 The DOS adopt policies and procedures to assure that the counties are aware of and follow
     all applicable procurement policies prior to reimbursing them for HAVA expenditures.

DOS’s Response:

The DOS officials stated that the County Election Boards and Superintendents of Elections
while purchasing voting equipment during calendar years 2004 and 2005 did review equipment
alternatives to insure the voting machines were reliable and the best choice at the time. The
counties did not formally bid the equipment due to New Jersey Statute 40A:11-5(1)(l), which
exempts goods or services necessary or required to prepare and conduct an election from
bidding. For future procurements all efforts will be made to obtain bids or use state contracts.

III.    Interest on State Match

New Jersey established an election account to hold HAVA funds in accordance with the
requirements of HAVA, Section 254(b)(1). HAVA also requires the election account to hold the
five percent state matching funds. Furthermore, interest earned from the investment of the
monies must also be deposited into the election account. The timely deposit of interest earnings
produces a compounding effect that adds additional funds to the program.

New Jersey received installments of $24,358,479 and $43,709,107 in Section 251 funds on
September 14, 2004 and April 19, 2005, respectively. New Jersey’s matching requirement was
$1,282,025 and $2,300,479, which was appropriated for the fiscal years ended June 30, 2004
and 2005, respectively. The unexpended balance of the state matching funds as of July 31,
2010 was determined to be $2,718,402. While the state appropriated the matching funds
timely, the state did not deposit the required match in the election account. Therefore, the
interest earned on the match of $443,961 was also not deposited to the election account.
Furthermore, until the state transfers this interest into the election account, the interest due to
the account increases for additional interest. We calculated that additional interest of $4,092
should be deposited into the election account as of October 31, 2010.


                                                  6
	
We estimate that as of October 31, 2010, $448,053 of earned interest was not available for
HAVA program activities.

HAVA Section 254(b) (1) requires that the following monies be deposited into the state’s
election account:

   A.		 Amounts appropriated or otherwise made available by the State for carrying out the
        activities for which the requirements payment is made to the State under this part
        (the State matching requirement of five percent of the federal HAVA Section 251
        funds).

   B.		 The requirements payment made to the State (the federal HAVA Section 251
        funds).

   C.		 Such other amounts as may be appropriated under law.

   D.		 Interest earned on deposits of the fund.

Recommendation:

4.		 We recommend that the New Jersey treasurer transfer the unexpended appropriated
     matching funds, $2,718,402, and the $443,961 of interest owed to the election account for
     the period from September 2004 through July 2010, plus the additional compounded interest
     of $4,092 as of October 31, 2010 and any additional compounded interest owed through the
     date of the transfer.

DOS’s Response:

In their response to the draft report (Appendix A-2), the DOS officials described the actions that
were taken to implement the recommendation.


                               ****************************************

We provided a draft of our report to the appropriate individuals of the New Jersey DOS and the
EAC. We considered any comments received prior to finalizing this report.

The EAC responded on May 2, 2011 and generally agreed with the report’s findings and
recommendations. The EAC stated that they would work with the DOS to gain additional
information to enhance their understanding of the state’s procurement process to ensure
corrective action. The EAC’s complete response is included as Appendix A-3

CG performed its work between August 16, 2010 and September 17, 2010.


a1 
Calverton, Maryland
	
February 15, 2011
	



                                                   7
	
                                                                                                                             Appendix A·1




                                                            ~tait      of   NtuJ J/trm>y
                                                                 DF.PARTMENT OF STAl E
                                                                    TRENTON. NJ 08625
                                                                      (609) 984-1900
CHR IS CIIRISTIE                                                                                                           Lr. GUVF.RNOR KIM (iI 'AIM"":, )
    G",'/:rnor                                                                                                                         .'W:. n'w,,' uf StOl~'




                                                                                                                                  Jan uary 4. 20 II

             !'vir. Curtis W. Crider                                                          V I A - EIII :l il
             Inspec tor General
             U.S. Elec tion Assistance Comm ission
             1:10 I New York Ave . NW - Su ite 300
             Washington, DC 20005



             Dea r Mr. Cride r,

             Enclosed please fi nd our responses to the No tice of Findi ng and Recommendations (N FR) for the rcecm audit of the
             period ending July .31, 2010.

             1\ FR ti l - Property R.cconJs

             Voti ng Machi nes were purchased by Ihe 2 1 COli/H ies in New Jcrs\!y. Ench CQUIllY has thl.! responsibility fo r physical
             sl!clIrity and propcrly accountabil it y Ofll1(:;r asselS. The Div isio n ofElcctiul1s did vl::r i fy the voting machines ,lIlel
             Other nsscts were phys ically at the county Election OOiccs and were ill agrccment with the inventory listings to fully
             comply with the Federa l common ru le, the Departme nt ofSt<llc. Division ofE lcclions will modify the properly
             inventory wilh all the \\dditiona l data fields lor 3SSc.:IS purchased with HA VA funding.


             NFR ;t:!. - Sole So urce Procu rement

             The Coun ty Elec tion 13oar<..ls ;.In<..l Supt.:rilH!..!n<..lents of Elections white purchasing vOling equ ipmell t durin.!; cnk:ndar
             years 200tl an <..l 2005 did review equipmcn t nltcrnativcs 10 insure the voting machines were reliable and the best
             choice.'It that timc. The Coullties did not forma ll y bid the cquipmt!1l1due to NJ Slatc StatutI! 40A: 11·5( I) (I). which
             exempts good or services necessary or requ ired to pn:parc and co nduc t an election from bidding. For fut ure
             procurements all effort s wi ll be made to ob tai n bids or usc sHlle co ntrac ts.

                 NFR #3 - Intcres t on Stil le Ma lch

              The NJ Dt:partmclll of Stare ilftcr rcceiving the HAVA progrum from the NJ [)cparlll1~11I of I.n\\' and Public SalclY
             wns unaware or lhe requiremcnt to have interest from the: SHltc match credited inlO lhe HA VA program. \Vc arc
             cllrrcllIly worki ng Wil h the NJ Depanll1cn[ ofT rcasui)' to rectify this si tuatio n.

                      .;. - Financial Accollntin.!; <I nd R!..!port ing-E-fFinding Resolve d and Closed j

             The tlcwilcd Jcdgcr pri nt outs u I . ~         , lhe New Jersey Depan n "                • e 10 prepare and formula te: the:
             worksheets, capturing til t.: HA VA fi nanc ial activ ities          1 m:ct ly from th e St.IIC· S cClllm l acco llnt ing syste m.
             the New Je rsey Comprehensive .' .                 ySlelll (NJCFS). Thes!..!            • I!.!cr prin t oul s (Busi ness Objccts
             Reports) are            , me records amJ accoll llti ng <..Iala mai ntaincdhlli lizcd by the ta             !.  Jcrsey Office of
                                                                                                                              I


                 agemcl1I and Budget. There arc no sl'paralc accuu nts mai ntained so no rcconci li.uion is necessa ry.




                                                                                B
        VA          ha\le been issued by their own designated account. with ind
        VA funds have                                                                i\lidual re
                                                                                individual               catc~orics (secon
                                                                                                 porting categories
                                                                                              reporting
budgellc\le s
budgctlevc       ". ~ ed  to distinguish between 25 1 and
                      cd 10                             und 101
                                                            10 1 to ensure that al l d
                                                                                     disbursements
                                                                                       isbursements and pro"          cOllle are
                                                                                                                      come
properly recorded and aceact:        OT in the state's accounting records.
                                     or

In order to demonstrate this, we ha\le
                                    h;lve attached ec <     f re " , naltered
                                                                       nil tered and
                                                                                 an d printed directl y from
                                                                                                        fro lll NJCFS, the   thc
account managed by the Slate of New Jersey Of               anagc                     wh ich coi
                                                                          ld Budget, which     coincide
                                                                                                  ncide with Ihethe deta
                                                                                                                    detailediled
ledger print outs
              OUIS (excel
                   (excel spreadsheets             y the New Jersey Deparlme
                                                                    Departme                \0 prepare and formula
                                                                                        Ie 10
                                                                                        Ii:                   formu latct.:: Ihe
                                                                                                                             the
worksheets.
If you IIha               questionss regarding our responses. please conlacl
                          question                                           contact me al (609)                     4411 or
        erson {a sos.slate.
        ..:rson  sos.statc.n·.us.
                            n· .us.


Sincerely,
S incerely,



z';1'cJi~
z.;-ICLL--
Ery!F.
Erip F. Anderson
Chief Financial Officer


Enclosures

Cc: NJ Division
       Di\lision of Elections




                                                                9

                                                                                               Appendix A-2




Mr. Curtis W. Crider                                                   VIA-Email            May 2, 2011
Inspector General
U.S. Election Assistance Commission
1201 New York Ave. NW – Suite 300
Washington, DC 20005



Dear Mr. Crider,

Enclosed please find our comments to the draft report “Performance Audit Report – Administration of Payments
Received Under the Help America Vote Act by the State of New Jersey” dated February 15, 2011.

    1.   Property Records

    2.   Sole Source Procurement

    3.   Interest on State Match
         New Jersey established an election account to hold HAVA funds in accordance with the requirements of
         HAVA, Section 254(b) (1). HAVA also requires the election account to hold the five percent state
         matching funds. Furthermore, interest earned from the investment of the monies must also be deposited into
         the election account. The timely deposit of interest earnings produces a compounding effect that adds
         additional funds to the program.

         Recommendation by EAC
         We recommend that the New Jersey treasurer transfer the unexpended appropriated matching funds,
         $2,718,402, and the $443,961 of interest owed to the election account for the period September 2004
         through July 2010, plus additional compounded interest of $4,092 as of October 31, 2010 and additional
         compounded interest owed though the date of the transfer.

         DOS Response
         DOS in cooperation with the NJ Department of Treasury as rectified all interest and has moved all interest
         to a specified account.


If you have any questions regarding our responses, please contact me at (609) 341-2741 or
eric.anderson@sos.state.nj.us.


Sincerely,

Eric F. Anderson
Chief Financial Officer




                                                        10
                                                                       Appendix A-3




                   EAC RESPONSE TO THE DRAFT AUDIT:
                   OIG Performance Audit Report on the Administration of
                   Payments Received Under the Help America Vote Act by the
                   State of New Jersey, for the Period January 1, 2006 Through
                   July 31, 2010.

May 2, 2011

MEMORANDUM

To:           Curtis Crider
              Inspector General

              Thomas Wilkey
              Executive Director

Subject: 	    Draft Performance Audit Report - "Administration of Payments
              Received Under the Help America Vote Act by the State of New
              Jersey".

Thank you for this opportunity to review and respond to the draft audit report for
New Jersey.

The Election Assistance Commission (EAC) has reviewed the preliminary audit
results and recommendations. While we generally concur with the findings , we
will work with the New Jersey Department of State to gather additional
information to enhance our understanding of the state's procurement process to
ensure appropriate corrective action.




                                        11
                                                                                       Appendix B
                                    AUDIT METHODOLOGY

Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds.

•	 Understanding relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate DOS employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit report and other reviews related to the state’s financial
   management systems and the HAVA program for the last four years.

•	 Reviewed policies, procedures and regulations for the DOS’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election account.

•	 Examined appropriations and expenditure reports for state funds used to meet the five
   percent matching requirement for section 251 requirements payments.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the financial status reports, Forms SF-269 and 425, accounting for
   property, purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election account.

•	 Conducted site visits of selected counties to observe physical security/safeguard of
   equipment purchased with HAVA funds and to test for proper accounting and documentation



                                                12
	
                                                                                                   Appendix C
	
                                                                                                                      


                 MONETARY IMPACT AS OF JULY 31, 2010



                                                             Questioned             Additional Funds for
                      Description                              Costs                      Program
                                                                                                               2
     Interest on State Matching Funds                                     $0                        $448,053

     Sole Source Procurement                                $22,693,9823                                     $0

     Totals                                                     $22,693,982                          $448,053




2 The interest total above is the estimated amount due the election fund through October 31, 2010. An undetermined
additional amount will be due for the period from November 1, 2010 to the date it is transferred to the election fund.
3 The questioned costs indicated above for sole source procurement is only for the five (5) counties we visited. A
determination was not made for the remaining six (6) counties as to whether they used formal solicitation procedures
to purchase their voting equipment. Therefore, there may be additional questioned costs related to sole source
procurement.


                                                         13
	
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
